                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     No Indications of Bias
                     Found in a Sample of
                     Freedom of Information Act
                     Fee Waiver Decisions
                     But the EPA Could Improve
                     Its Process
                     Report No. 14-P-0319                   July 16, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Patrick Gilbride
                                                    Erin Barnes-Weaver
                                                    Benjamin Beeson
                                                    Ganesa Curley
                                                    Derek Mulvihill
                                                    Luke Stolz




Abbreviations

CFR           Code of Federal Regulations
DOJ           U.S. Department of Justice
EPA           U.S. Environmental Protection Agency
FOIA          Freedom of Information Act
OEI           Office of Environmental Information
OGC           Office of General Counsel
OIG           Office of Inspector General
OMB           Office of Management and Budget



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  14-P-0319
                                                                                                           July 16, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review               No Indications of Bias Found in a Sample of
The Deputy Administrator of          Freedom of Information Act Fee Waiver Decisions
the U.S. Environmental               But the EPA Could Improve Its Process
Protection Agency (EPA)
requested a review to                 What We Found
determine whether the EPA fee
waiver determinations under          We found that the EPA responded to fee waiver    To improve customer
the Freedom of Information Act       requests, on average, within 12 business days,   service and lessen any
(FOIA) were completed in a           although we noted wide variation in response     perception of differential
timely and unbiased manner.          times among the sample we reviewed. We found     treatment, the EPA should
Specifically, we evaluated           that 47 percent of the EPA’s responses to fee    address variability in time
whether the EPA implements           waiver requests we reviewed exceeded the         to respond to FOIA fee
the FOIA fee waiver provisions                                                        waiver requests and should
                                     agency’s 10-business-day goal. The time it takes
in accordance with regulations;                                                       clarify what requesters
                                     the EPA to respond to fee waiver requests has    must demonstrate to
adheres to timely and unbiased       remained fairly consistent over time. On fee     receive a fee waiver.
treatment of requests for fee        waiver appeals, we found that over 71 percent of
waivers; and tracks the              decisions we reviewed exceeded the EPA’s processing goal of 20 business days.
elements of fee waiver
requests to demonstrate timely       The factor most frequently cited by the EPA when it denied fee waiver requests
and unbiased treatment.              was the requester not adequately describing how disclosure of the requested
We reviewed 1,077 EPA FOIA           information would contribute to public understanding. The EPA cited this factor in
fee waiver denials issued            more than half of the denials we reviewed (585 out of 1,062).
between October 1, 2009, and
June 19, 2013. We also               We found no indications of bias in the fee waiver decisions we reviewed. We
reviewed 475 fee waiver              agreed with how the EPA applied the six factors when deciding 452 of the 475
requests from 21 organizations       fee waiver requests we reviewed from 21 different organizations. Of the 475, our
to determine whether the EPA         decisions differed from the agency’s in 23 instances (approximately 5 percent).
appropriately applied criteria       Among these 23 disagreements, we would have denied 17 that were granted due
(i.e., six factors in the agency’s   to our opinion that request letters lacked discussion on one or more factors. We
regulations to evaluate fee          also would have granted six that were denied. The EPA should clarify what
waiver requests).                    requesters must demonstrate under the six review factors and when to obtain
                                     additional justification from requesters to lessen any perception of potential
This report addresses the            differential treatment when evaluating fee waiver requests.
following EPA goal or
cross-agency strategy:                Recommendations and Planned Corrective Actions
  Embracing EPA as a high-
   performing organization.          We recommended that the Acting Assistant Administrator for Environmental
                                     Information and the General Counsel examine and address the reasons for
                                     variability in response times for FOIA fee waiver decisions and appeals. We also
For further information,             recommended that the Assistant Administrator for Environmental Information
contact our public affairs office    clarify what requesters must demonstrate under each factor to receive a fee
at (202) 566-2391.                   waiver, clarify the EPA’s approach on when to request additional justification, and
                                     inform the public of enhancements to the agency’s FOIA website and other
The full report is at:
                                     efforts to explain what must be demonstrated under each factor. The EPA agreed
www.epa.gov/oig/reports/2014/
20140716-14-P-0319.pdf               with our recommendations and developed or completed acceptable corrective
                                     actions. All recommendations are resolved. Recommendations 1 through 3 are
                                     open and recommendation 4 is closed.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL


                                             July 16, 2014

MEMORANDUM

SUBJECT:       No Indications of Bias Found in a Sample of Freedom of Information Act
               Fee Waiver Decisions But the EPA Could Improve Its Process
               Report No. 14-P-0319

FROM:          Arthur A. Elkins Jr.

TO:            Renee Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

               Avi Garbow, General Counsel
               Office of General Counsel

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

You are not required to provide a written response to this final report because you provided agreed-to
corrective actions and planned completion dates for the report recommendations. The OIG may make
periodic inquiries on your progress in implementing these corrective actions. Please update the EPA’s
Management Audit Tracking System as you complete planned corrective actions. Should you choose to
provide a final response, we will post your response on the OIG’s public website, along with our
memorandum commenting on your response. You should provide your response as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. We have no objections to the further release of this report to the public.

We will post this report to our website at http://www.epa.gov/oig.
No Indications of Bias Found in a Sample of                                                                               14-P-0319
Freedom of Information Act Fee Waiver Decisions
But the EPA Could Improve Its Process



                                  Table of Contents

 Chapters
   1    Introduction ......................................................................................................     1

                Purpose .....................................................................................................   1
                Background................................................................................................      1
                Scope and Methodology ............................................................................              4

   2    The EPA Should Address Variability in Response Times for
        Fee Waiver Requests and Appeals..................................................................                       7

                Timeliness of Responses to Fee Waiver Requests and Appeals................                                      7
                Factors Three and Four Most Often Cited for Denying Fee Waivers,
                    and Factors Two, Three and Four in Appeal Decisions .......................                                 11
                Conclusion .................................................................................................    14
                Recommendation .......................................................................................          15
                Agency Comments and OIG Evaluation .....................................................                        15

   3    The EPA Applied the Regulatory Standard Without Bias
        But Should Clarify Its Review Process ...........................................................                       16

                The EPA Consistently Applied the Regulatory Standard
                    to a Sample of Fee Waiver Decisions..................................................                       16
                Additional Clarity Would Be Helpful on Factors the EPA Uses to
                    Decide Fee Waiver Requests ..............................................................                   17
                The EPA Eliminated Its Practice of Requesting Additional Justification ......                                   18
                Conclusion .................................................................................................    19
                Recommendations .....................................................................................           19
                Agency Comments and OIG Evaluation .....................................................                        19

   Status of Recommendations and Potential Monetary Benefits .............................                                      21



 Appendices
   A    Methodology for OIG Sample Selection ..........................................................                         22

   B    Agency Response to the Official Draft Report and OIG Comments .............                                             24

   C    Distribution .......................................................................................................    33
                                           Chapter 1
                                            Introduction
Purpose
                 We conducted this evaluation in response to a request from the U.S. Environmental
                 Protection Agency (EPA) Deputy Administrator. We were asked to assess whether
                 the agency evaluated Freedom of Information Act (FOIA) fee waiver requests in a
                 timely and unbiased manner. Specifically, we sought to determine whether the EPA:

                        Implements the FOIA fee waiver provisions in accordance with the EPA’s
                         regulations in the Code of Federal Regulations (CFR) at 40 CFR § 2.107
                         and policies and procedures.
                        Adheres to timely and unbiased treatment of fee waiver requests.
                        Tracks the elements of fee waiver requests to demonstrate timely and
                         unbiased treatment.

Background
                 The Freedom of Information Act and Fee Categories
                 FOIA,1 enacted in 1966, provides the public a right to obtain access to federal
                 agency records, except to the extent that such records (or portions of them) are
                 protected from public disclosure by one of nine exemptions or by one of three law
                 enforcement record exclusions. FOIA states that agency records will be furnished
                 without any charge or at a reduced charge if disclosure of the information:
                     (1) Is in the public interest because it is likely to contribute significantly to
                         public understanding of government operations or activities; and
                     (2) Is not primarily in the commercial interest of the requester.

                 The Act also states that, upon any request of records, each federal agency shall
                 determine within 20 days (excepting weekends and legal public holidays) after the
                 receipt of any request whether to comply with the request for records.2 Under
                 FOIA, federal agencies are required to promulgate regulations on processing
                 requests for records and establishing procedures for determining when to waive or
                 reduce fees to produce records. FOIA designated three categories of requesters
                 and prescribes fees for processing requests, by requestor category:3
                     (1) Commercial use.

1
  5 U.S.C. § 552.
2
  The 20-working-day processing time can be extended by the agency under provisions of the FOIA to account for
complex requests and unusual or exceptional circumstances. See 5 U.S.C. § 552(a)(6)(B) & (D).
3
  For category definitions, see Office of Management and Budget (OMB) Uniform Freedom of Information Act Fee
Schedule and Guidelines (March 27, 1987). Except for commercial use requests, an agency must provide without
charge the first 2 hours of search time and the first 100 pages of duplication.


14-P-0319                                                                                                        1
                        (2) Educational or non-commercial scientific institution, news media.
                        (3) Other.

                  FOIA does not include time frames for making decisions on fee waiver requests.
                  FOIA states that an agency shall not assess certain fees if it fails to comply with
                  the 20-day time limit (absent unusual or exceptional circumstances).

                  The EPA’s FOIA Regulations on Fees and Fee Waivers

                  The EPA’s FOIA regulations (40 CFR §§ 2.100-2.108) cover the different
                  categories of requesters4 and fee charges based on category, and states that no fees
                  will be charged for a request where a fee waiver is granted or if the total fee under
                  any category is $14 or less. According to the EPA, the agency’s FOIA regulations
                  are consistent with OMB Fee Guidance of 1987, the U.S. Department of Justice
                  (DOJ) FOIA regulations, and the regulations of nearly all other federal agencies.

                  Requesting a Fee Waiver

                  Any FOIA requester may ask that the EPA waive all fees associated with a
                  request. The fee waiver request must be submitted with the FOIA request for
                  records. Upon receiving a fee waiver request, the EPA FOIA office will determine
                  whether a fee waiver request meets the six factors listed in table 1.5
                  Table 1: Factors the EPA must consider in evaluating fee waiver requests
                    1     Whether the subject of the requested records concerns “the operations or
                          activities of the government.”
                    2     Whether the disclosure is “likely to contribute” to an understanding of government
                          operations or activities. The disclosable portions of the requested records must be
                          meaningfully informative about government operations or activities in order to be
                          “likely to contribute” to an increased public understanding of those operations or
                          activities.
                    3     Whether disclosure of the requested information will contribute to “public
                          understanding.” The disclosure must contribute to the understanding of a
                          reasonably broad audience of persons interested in the subject, as opposed to
                          the individual understanding of the requester (presumption for news media).
                    4     Whether the disclosure is likely to contribute “significantly” to public understanding
                          of government operations or activities.
                    5     Whether the requester has a commercial interest that would be furthered by the
                          requested disclosure.
                    6     Whether any identified commercial interest of the requester is sufficiently large, in
                          comparison with the public interest in disclosure, that disclosure is “primarily in
                          the commercial interest of the requester.” FOIA offices ordinarily will presume that
                          when a news media requester has satisfied the public interest standard, the
                          public interest will be the interest primarily served by disclosure to that requester.
                  Source: 40 CFR § 2.107.

4
  The EPA’s FOIA regulations state that there are four categories of requests: (1) commercial use, (2) educational or
non-commercial scientific requests, (3) news media and (4) all other requests.
5
  In 1987, DOJ issued fee waiver policy guidance recommending that federal agencies use six analytical factors for
determining when fees should be waived or reduced. The six factors considered by the EPA (listed above) are
consistent with the factors identified in this guidance.


14-P-0319                                                                                                           2
                    When the EPA denies a fee waiver request, the requester will be notified of that
                    determination in writing. A requester may appeal any fee waiver denial in writing
                    no later than 30 calendar days from the date of the letter denying the request. The
                    EPA’s decision on appeal will be made in writing, normally within 20 working
                    days of receipt of the appeal request.6 An appeal decision upholding the denial in
                    whole or in part will contain the reason for the EPA’s decision.

                    The EPA’s FOIA website includes a reference guide with general information on
                    fee waiver requests, contact information for agency FOIA staff, and links to the
                    agency’s regulations and website to electronically submit both FOIA and fee
                    waiver requests.

                    Responsible Offices

                    The EPA has 11 FOIA offices—one in headquarters and one in each of its
                    10 regions. The headquarters office is located in the Office of Information
                    Collection in the Office of Environmental Information (OEI). The EPA’s Office
                    of General Counsel (OGC), through its general law office, handles all appeals of
                    fee waiver denials. The headquarters office also reviews fee waiver requests made
                    to the OIG and any appeals of those determinations would be reviewed by OGC.

                    FOIA Operations, Procedures and Data Systems

                    On September 30, 2013, the agency issued Interim Procedures for Responding to
                    Freedom of Information Act (FOIA) Requests.7 According to these procedures, all
                    fee waiver requests are processed by the headquarters FOIA office. The agency
                    FOIA Officer makes the initial decision whether to grant or deny a fee waiver
                    based on recommendations from three FOIA Specialists who are also in
                    headquarters. According to the agency FOIA Officer, in February 2011 the
                    agency decided to centralize the fee waiver determination process in the
                    headquarters office to provide for more consistency in decision making. Prior to
                    this, each region had its own procedures for processing FOIA requests and
                    making fee waiver decisions.

                    In 2005, the EPA deployed FOIAXpress as an enterprise FOIA management
                    system. The agency FOIA Officer explained that FOIAXpress was a tracking
                    system for the agency but was not an official record keeping system (hard copy
                    files were still considered the official records). To improve FOIA management
                    and process, the agency—along with several other federal agencies—deployed
                    FOIAonline on October 1, 2012. The FOIAonline system is a multi-tenant, online
                    FOIA repository and secure agency processing system used by partner agencies
                    across the federal government. FOIAonline is the agency’s official record keeping
                    system for FOIA requests.


6
    The FOIA requires that each agency “shall make a determination with respect to any appeal within 20 days.”
7
    The EPA issued earlier drafts of the interim procedures in March and July of 2013.


14-P-0319                                                                                                        3
Scope and Methodology
                  We conducted our review from June 2013 to March 2014. We conducted this
                  performance audit in accordance with generally accepted government auditing
                  standards. Those standards require that we plan and perform the audit to obtain
                  sufficient, appropriate evidence to provide a reasonable basis for our findings and
                  conclusions based on our audit objectives. We believe that the evidence obtained
                  provides a reasonable basis for our findings and conclusions based on our audit
                  objectives. Appendix A provides additional details on our sample selection
                  methodology, summarized below.

                  To determine whether the EPA implements the FOIA fee waiver provisions in
                  accordance with regulations, policies and procedures, we reviewed relevant laws
                  including the FOIA. We also reviewed the EPA’s regulations (40 CFR §§ 2.100-
                  2.108) as well as the agency’s September 30, 2013, Interim Procedures for
                  Responding to Freedom of Information Act (FOIA) Requests and earlier iterations
                  of these procedures. We consulted OMB and DOJ guidance and training, as well
                  as training provided by the American Society of Access Professionals. We
                  interviewed agency FOIA staff on the EPA’s process for determining and
                  documenting fee waiver decisions. Interviewees included headquarters FOIA
                  Specialists, the agency FOIA Officer, and a supervisor within OEI’s Office of
                  Information Collection, Collection Strategies Division. We also interviewed the
                  EPA’s lead FOIA attorney in OGC on the fee waiver determination appeals
                  process.

                  To address our remaining objectives on timely and unbiased treatment of fee
                  waiver requests, we obtained access to FOIAXpress and FOIAonline. We ran
                  reports to generate a list of FOIA fee waiver requests from October 1, 2009, to
                  June 19, 2013. After working to eliminate duplicates, we identified 1,077 denied
                  fee waiver requests in this time period.8 We reviewed all 1,077 denials to
                  determine the:

                           Individual and/or organization making each fee waiver request.
                           Date of the fee waiver request.
                           EPA’s decision date and outcome of the request (i.e., granted or denied).
                           Factor(s) cited as the basis for each fee waiver denial.
                           Dates of appeals of fee waiver denials, if appealed.
                           OGC’s appeal decision date and outcome.
                           Factor(s) cited in appeal decisions.

                  We also reviewed a subset of 475 fee waiver requests from 21 separate
                  organizations to determine whether the EPA appropriately applied its fee waiver

8
  In his request, the Deputy Administrator asked us to review at least the last five full fiscal years and to begin with
fiscal year 2006. Due to resource and time constraints, we selected a smaller range, specifically fiscal years 2010
through June 19, 2013—the date we announced this review to EPA.


14-P-0319                                                                                                                  4
                 evaluation criteria and whether organizations asking for waivers appropriately
                 justified their requests.9 For the subset of 475, we reviewed both the agency’s
                 initial fee waiver determination and its decision on appeals of any denials, if
                 applicable. After completing our review, we met with the agency FOIA Officer
                 and the OGC’s lead FOIA attorney to discuss questions we had on individual
                 files. We also interviewed individuals from five of the 21 organizations for their
                 perspectives on the EPA’s fee waiver process and whether they had any suggested
                 areas for improvement.

                 We did not perform data quality testing on the reports we obtained from the
                 EPA’s FOIAXpress and FOIAonline systems. We relied on data we obtained
                 from these reports and verified other data through additional documentation. For
                 example, we obtained copies of letters for information that we could not locate in
                 data system reports.

                 Prior Audit Coverage

                 Our office issued two prior reports on FOIA:

                   EPA Has Improved Its Response to Freedom of Information Act
                   Requests But Further Improvement Is Needed (March 25, 2009),
                   Report No. 09-P-0127
                     At the time of this report, the agency processed fee waiver requests in
                       either headquarters or the region that received the FOIA request. As a
                       result, our office found that it was possible for a requester to submit
                       multiple fee waiver requests to different regions simultaneously and
                       receive different results. Our office recommended that the EPA
                       standardize FOIA procedures at a national level, and it was shortly after
                       this report that the agency decided to centralize all fee waiver
                       determinations in the agency FOIA office in headquarters.

                   Congressionally Requested Inquiry Into EPA’s Handling of Freedom of
                   Information Act Requests (January 10, 2011), Report No. 11-P-0063
                     This report did not include any findings or recommendations related to fee
                        waivers and, rather, responded to a congressional request on whether
                        political appointees were made aware of information requests and had a
                        role in reviews and decision making.

                 Additionally, the Government Accountability Office issued a report10 on the
                 Office of Government Information Services, within the National Archives and
                 Records Administration, and recommendations that office makes to assist
                 agencies implementing FOIA. The report noted that the Office of Government
                 Information Services planned to enhance its role in administering FOIA by

9
 See the “File Review” section of appendix A for a description of how we selected the 475 fee waiver decisions.
10
  Office of Government Information Services Has Begun Implementing Its Responsibilities, but Further Actions Are
Needed (September 10, 2013), GAO-13-650.


14-P-0319                                                                                                      5
            working “with stakeholders from both inside and outside government to review
            the issues surrounding FOIA fees and fee waivers, which remains a persistent
            point of contention administratively and in litigation.” The report also noted that
            the office recommends as a communications best practice that agencies should
            post in plain language information about fees, fee categories and fee waivers.




14-P-0319                                                                                         6
                                               Chapter 2
        The EPA Should Address Variability in Response
          Times for Fee Waiver Requests and Appeals
                    The EPA met its goal of responding to fee waiver requests within 10 business
                    days in 567 out of 1,062 denials we reviewed, or 53 percent. On average it took
                    the EPA 12 business days to deny fee waiver requests although there was
                    considerable variability in the amount of time it took in the sample we reviewed.
                    It took the EPA more than 10 business days to deny fee waiver requests in 495
                    instances (one of which took 157 days and another took 542 days). Additionally,
                    it took the EPA, on average, more than double the 20-day regulatory requirement
                    to decide appeals. Over 70 percent of appeal decisions took 20 or more business
                    days, and there was variability in response time. For both the initial and the
                    appeals process the standard deviation was about twice the goal, showing high
                    variability in the process time to deny the fee waiver request or appeal. The EPA
                    should assess both processes to identify appropriate improvements to help meet
                    stated goals.

Timeliness of Responses to Fee Waiver Requests and Appeals
                    Timeliness of the EPA’s Responses to Fee Waiver Requests

                    FOIA states that an agency shall not assess certain fees if it fails to comply with
                    the 20-day time limit to respond to a request for records (absent unusual or
                    exceptional circumstances). However, neither the FOIA nor the EPA’s FOIA
                    regulations specify a time limit for responding to fee waiver requests.
                    Nonetheless, the agency FOIA Officer said that the EPA has an internal goal to
                    make fee waiver decisions within 10 business days of receipt of the request. In
                    our review of 1,077 fee waiver denials, we obtained documentation on 1,062
                    entries.11 Table 2 summarizes timeliness data from our review of 1,062 fee waiver
                    requests the EPA denied.

                    Table 2: Median and mean EPA response time to deny fee waiver requests
                                                                                     Median (mean) duration in
                              Data system                   Number reviewed               business days
                               FOIAXpress                        572                      10 (12.42) days
                               FOIAonline                        490                       9 (11.24) days
                       Totals and overall duration              1,062                     10 (11.88) days
                    Source: OIG data analysis for 1,062 fee waiver requests submitted from October 1, 2009, through
                    June 19, 2013.




11
     The EPA could not provide us copies of 15 denial letters the agency sent fee waiver requesters.


14-P-0319                                                                                                             7
            The data shows that the mean time to respond to a fee waiver request for our
            sample is about 12 business days. Figure 1 shows that the EPA was within its goal
            of 10 business days in 567 out of 1,062 instances, or 53 percent.

            Figure 1: Elapsed days to deny fee waiver requests




            Source: OIG data analysis for 1,062 fee waiver requests.

            Figure 1 illustrates variability in the amount of time it took the EPA to deny the
            fee waiver requests in the sample we reviewed. For example, we found that it took
            the EPA more than 10 business days to deny fee waiver requests in 495 instances,
            and two responses extended to more than 100 days (one took 157 days and
            another took 542 days).

            Timeliness of the EPA’s Decisions on Fee Waiver Appeals

            The EPA’s FOIA regulations at 40 CFR § 2.104(k) state that the agency will
            make decisions on appeals in writing normally within 20 working days of receipt
            by the headquarters FOIA staff. Of the 1,077 fee waiver denials we reviewed,
            there were 118 appeals. At the time of our review, four of the 118 appeals were
            still pending an EPA decision, and requesters withdrew an additional four prior to
            the EPA making its decision. Table 3 summarizes timeliness data from our review
            of 110 denied fee waiver requests for which requesters appealed and for which we
            had documentation of an EPA decision. Table 3 illustrates that it took the EPA, on
            average, more than double the agency’s 20-day goal to decide appeals.

            Table 3: Median and mean time for EPA to respond to fee waiver appeals
                                                                               Median (mean) duration in
                     Data system                     Number reviewed                calendar days
                      FOIAXpress                           50                       21 (20.38) days
                      FOIAonline                           60                      39.5 (61.43) days
              Totals and overall duration                 110                       26 (42.77) days
            Source: OIG data analysis for 110 fee waiver appeal decisions using the date listed on the
            requester’s appeal letter as the start date, and the date listed on the appeal determination letter
            sent by the EPA as the end date.



14-P-0319                                                                                                         8
            Figure 2 shows that over 71 percent of appeal decisions took more than
            20 business days, and also illustrates variation in response time.

            Figure 2: Elapsed days for the EPA to decide appeals




            Source: OIG analysis of the 110 fee waiver denials where requesters appealed.


            Information the EPA Needs to Track Timeliness and Assess Trends

            To assess trends over time, we created table 4 to show the average business days
            to deny requests by quarter for our sample period (October 2009 to June 2013).

            Table 4: Quarterly average business days to deny fee waiver requests
                  Quarter                Average business days to deny request
                  Q4-2009                               29.59
                  Q1-2010                               13.16
                  Q2-2010                               11.15
                  Q3-2010                               13.12
                  Q4-2010                               12.45
                  Q1-2011                               11.75
                  Q2-2011                               11.63
                  Q3-2011                               11.11
                  Q4-2011                                9.00
                  Q1-2012                               11.46
                  Q2-2012                               11.69
                  Q3-2012                               11.42
                  Q4-2012                                9.27
                  Q1-2013                               10.11
                  Q2-2013                               12.92
            Source: OIG data analysis for 1,062 fee waiver denials.



14-P-0319                                                                                      9
            Aside from an initial drop during the first two quarters of our scope period, data
            shows that the EPA’s response time has remained constant over time (October
            2009 through June 2013) with no noteworthy trends (see figure 3).

            Figure 3: Timeliness trends for EPA to deny fee waiver requests




            Source: OIG data analysis (red line denotes the EPA’s 10-business day goal).

            In contrast, data in table 5 and figure 4 illustrate greater variability in the time it
            takes the EPA to make appeals decisions, particularly given the agency’s
            20-business-day goal.

            Table 5: Quarterly average business days to deny fee waiver appeals
                 Quarter                Average business days to deny request
                 Q4-2009                               33.00
                 Q1-2010                               22.33
                 Q2-2010                               55.33
                 Q3-2010                               20.88
                 Q4-2010                               24.71
                 Q1-2011                                5.00
                 Q2-2011                               36.89
                 Q3-2011                               18.71
                 Q4-2011                               27.20
                 Q1-2012                               17.25
                 Q2-2012                               36.17
                 Q3-2012                               23.80
                 Q4-2012                               110.71
                 Q1-2013                               72.35
                 Q2-2013                               43.94
                 Q3-2013                               32.33
            Source: OIG data analysis for 110 fee waiver denials where requesters appealed.
            Q3-2013 includes information on only three appeal decisions within our scope.




14-P-0319                                                                                             10
            Figure 4: Timeliness trends for responses to appeals of fee waiver denials




            Source: OIG data analysis on appeal decisions (red line denotes the EPA’s 20-business day goal).

            The EPA attributed the higher-than-average business days to deny requests for
            Q4-2012 and Q1-2013 to the deployment and implementation of the new
            FOIAonline system and the learning curve associated with any major new system
            deployment.

            Our review found that the EPA has all of the information it needs to evaluate the
            agency’s response timeliness for fee waiver requests and appeals. Using
            information from the EPA’s FOIA data system, as we did, the agency can do
            trend analysis.

Factors Three and Four Most Often Cited for Denying Fee Waivers,
and Factors Two, Three and Four in Appeal Decisions
            The agency FOIA Officer makes determinations on all fee waiver requests,
            relying on recommendations from three FOIA Specialists. The agency FOIA
            Officer and the FOIA Specialists said that each decision is made on a case-by-
            case basis based on the information submitted with the fee waiver request. The
            EPA uses the six factors listed in 40 CFR § 2.107 on:

               1       Whether the subject of the requested records concerns the operations or
                       activities of the government.

               2       Whether the disclosure is likely to contribute to an understanding of
                       government operations or activities.

               3       Whether disclosure of the requested information will contribute to public
                       understanding.

               4       Whether the disclosure is likely to contribute significantly to public
                       understanding of government operations or activities.




14-P-0319                                                                                                 11
                      5       Whether the requester has a commercial interest that would be furthered by
                              the requested disclosure.

                      6       Whether any identified commercial interest of the requester is sufficiently
                              large, in comparison with the public interest in disclosure, that disclosure is
                              primarily in the commercial interest of the requester.

                  When the EPA determines that a request does not meet one of the six factors, the
                  EPA does not evaluate the request under the remaining factors. In addition to the
                  six factors, we identified four other factors (unrelated to the six regulatory factors)
                  that account for denials the EPA made:
                      7       The original request failed to meet one or more of the factors. However, the
                              FOIA specialist provided an opportunity for the requester to submit
                              additional information and, absent a response, denied the fee waiver.

                      8       Requester did not submit the fee waiver request with the original FOIA
                              request as stated in regulations (40 CFR § 2.107(l)(5)).

                      9       Not a formal FOIA request because request was made by another agency in
                              the executive branch of the federal government. A federal agency does not
                              meet the FOIA’s definition of ‘person’ entitled to make a request. 12

                     10       None of the other nine factors were cited in the denial letter.13

                  Figure 5 summarizes the regulatory and other factors cited by the EPA as the
                  basis for denying fee waivers in the letters we reviewed.

                  Figure 5: Regulatory and other factors cited by the EPA in fee waiver denials




                  Source: OIG analysis of data for 1,062 fee waiver denials (note that columns total 1,063 because
                  one denial letter cited two factors).



12
   Per 5 USC § 551(2) "person" includes an individual, partnership, corporation, association, or public or private
organization other than an agency.
13
   As shown in Figure 5, we observed one letter that did not cite any of the factors as the basis for denial.


14-P-0319                                                                                                            12
                    On factor #3, the DOJ’s Guide to the Freedom of Information Act (2009) states
                    that “[r]equesters who make no showing of how the information would be
                    disseminated, other than through passively making it available to anyone who
                    might seek access to it, do not meet the burden of demonstrating with particularity
                    that the information will be communicated to the public.” On factor #7, the EPA
                    asked for more information to make its decision and, absent receiving additional
                    information, denied the fee waiver request.

                    As explained in Chapter 1, the FOIA designated three categories of requesters and
                    prescribes fees for processing requests, by category: (1) commercial use;
                    (2) educational or non-commercial scientific institution, news media; and
                    (3) other. Table 6 shows—by fee category—the regulatory and other factors cited
                    by the EPA as the basis for denial:

                    Table 6: Regulatory or other denial factor by fee category
                                         Row                                    Factors
                       Combined        subtotals      1      2     3      4      5    6       7      8      9    10
                      Commercial
                                          255         0      1    120    25      5     43     56     4      0        1
                          use
                      News media
                      educational          79         0      1     32     7      0        1   33     5      0        0
                      & scientific
                         Other            724         0      2    430    112     0        3   170    6      1        0
                          Null
                                            5         0      0     3      0      0        0   2      0      0        0
                        category
                                         1,063
                    Source: OIG analysis of fee waiver denial data. When added, the table totals 1,063 because one
                    letter cited two factors.


                    Where requesters appealed fee waiver denials, we found that OGC reversed the
                    denial and granted the fee waiver in 12 of 110 instances (or more than 10 percent
                    of the time). We also found that OGC determined that the fee waiver was “moot”
                    in 34 of 110 instances (or approximately 31 percent of the time) because the
                    majority (30 of the 34) had not reached the minimum billable amount of $14,
                    making a fee waiver unnecessary.14 For the balance of appeal decisions, OGC
                    cited the regulatory or other factors listed in figure 6 to uphold denials or partial
                    denials.




14
     The remaining four of the 34 were determined to not be proper requests under FOIA.


14-P-0319                                                                                                            13
            Figure 6: Regulatory or other factors cited by OGC to uphold denials




            Source: OIG analysis of data on 64 appeal denials. Column totals, when added together,
            exceed 64 as some appeal decision letters cited more than one factor.

            Information the EPA Needs to Track Factors and Assess Trends

            The EPA does not track the factor cited as the basis for denial in FOIAonline but
            can, as we did, pull the factors cited from denial letters to assess trends. Tracking
            denial factors would inform the agency of the frequency of factors cited and
            would, through the agency’s analysis, identify any difficult factors for requesters
            to address that the EPA could mitigate through process improvement.

Conclusion

            Data we reviewed shows that neither the EPA’s FOIA fee waiver determination
            process nor the appeals determination process met the respective goals of 10 and
            20 business days. On average, it took the EPA approximately 12 business days to
            deny fee waiver requests and approximately 43 business days to decide appeals.
            The data we reviewed displays a large amount of variability in both processes,
            with the standard deviations being around twice the stated goal in each process.
            While the quarterly process performance data for fee waiver decisions shows a
            generally flat trend with no significant change over the past 3 years, the data also
            contain outliers and other markers that require management attention. The
            quarterly averages for appeal decisions show trends for increasing time to decide
            appeals and increasing process variability. The EPA should assess both processes
            to identify appropriate improvements to help the agency meet its stated goals.




14-P-0319                                                                                            14
Recommendation
            We recommend that the Assistant Administrator for Environmental Information
            and the General Counsel:

               1. Examine and address the reasons for variability in response times for
                  FOIA fee waiver decisions and appeals.

Agency Comments and OIG Evaluation
            After reviewing our preliminary findings and recommendation, OEI and OGC
            requested that we provide the tracking numbers associated with the two
            100-plus-day outliers in figure 1 and for the appeal timeliness spike in figure 4 so
            they could begin to examine response-time variability. We provided the requested
            information in advance of issuing our official draft to the agency for comment.

            The EPA responded to our official draft report that it had established an internal
            goal of 10 days but will now follow the 20-day time limit that applies to the FOIA
            request for records. The EPA agreed with our recommendation and noted that it
            will complete corrective actions during the second quarter of fiscal year 2015.




14-P-0319                                                                                     15
                                  Chapter 3
   The EPA Applied the Regulatory Standard Without
      Bias But Should Clarify Its Review Process
            The EPA consistently applied the six factors used for determining whether fee
            waiver requirements were met in a sample of 475 requests that we reviewed from
            21 different organizations. Of the 475, our decisions differed from the agency’s in
            23 instances (approximately 5 percent). Based on our sample review, the EPA
            reviewed each fee waiver request on a case-by-case basis and did not give
            automatic grants based on a requester’s past success. While we found no
            indications of bias in the sample we reviewed, the EPA could better clarify what
            requesters must demonstrate under each factor as requester interviewees
            expressed confusion on the distinctions among the six factors and what
            information they should provide for the EPA to evaluate each factor.
            Additionally, we found that the EPA took an extra step not required by FOIA or
            the EPA’s regulations to request additional justification from requesters.
            Clarifying both what requesters must demonstrate for the six review factors and
            the EPA’s approach on when to request additional justification could strengthen
            the consistency of the EPA’s process and lessen any potential perception of
            differential treatment of FOIA requesters in the future.

The EPA Consistently Applied the Regulatory Standard to a Sample of
Fee Waiver Decisions
            Our review of a sample of 475 fee waiver requests showed that the EPA
            consistently evaluated requests on a case-by-case basis against the six factors.
            Using the six factors, we agreed with 452 out of 475 fee waiver decisions. This
            includes our agreement on the factor cited by the EPA as the basis for any denials.

            Our decisions differed from the agency’s in 23 instances (approximately
            5 percent). These differences spanned nearly half of the 21 organizations we
            reviewed. Among these 23, we would have denied 17 that were granted due to our
            opinion that request letters lacked discussion on one or more factors.

            We also would have granted six that were denied. Among the six denials,
            requesters appealed the agency’s decision in five instances. In each appeal, the
            requester provided additional supporting information not included in the original
            request. OGC upheld two denials, issued two partial grants, and overturned one
            denial (i.e., granted the request on appeal).

            In most cases, our decisions differing from the agency’s could be attributed to the
            subjectivity of some of the six factors themselves. For example, factor #4 requires
            that the information requested “significantly” contribute to public understanding.
            Since what is considered by the agency to be “significant” is not described, this


14-P-0319                                                                                    16
            could lead to differing opinions on whether a request meets this factor. For
            factor #3, DOJ guidance specifies that requesters must actively disseminate the
            information to the public. The EPA’s regulations consider intention of a requester
            to effectively convey the information to the public. However, the regulations do
            not direct a requester to specifically state how it will actively distribute the
            requested information. As a result, some requests only implied how the FOIA
            information would be disseminated.

            We met with the agency FOIA Officer and the OGC’s lead FOIA attorney to
            discuss our differences and they noted nuances under each factor. The agency
            FOIA Officer also said that previous fee waiver grants have no bearing on future
            success, which means that new and “seasoned” requesters alike must address the
            six factors in each request. We describe below how the EPA could clarify what
            requesters must demonstrate under the factors.

Additional Clarity Would Be Helpful on Factors the EPA Uses to
Decide Fee Waiver Requests
            Of the 475 files we reviewed, the EPA made initial determinations to deny fee
            waiver requests in 110 instances (23 percent). We found varying degrees to which
            requesters addressed the six factors in their fee waiver requests. Individuals we
            interviewed from two organizations said “many of the factors are the same” and
            tend to merge or blend together. For example, we found that many requesters used
            similar language to address factors #2 and #4 which, respectively, ask (emphasis
            added):

               2      Whether the disclosure is likely to contribute to an understanding of
                      government operations or activities.

               4      Whether the disclosure is likely to contribute significantly to public
                      understanding of government operations or activities.

            The following illustrate two requests that used similar language for factors #2 and
            #4 (emphasis added to show similarities):

             Example 1    Factor #2
                          Second, the public does not currently possess any information
                          about the supplemental data submitted by registrants… the disclosure
                          of these records would therefore be meaningfully informative….
                          Factor #4
                          The public does not have access to these data. Disclosure of the
                          requested records will contribute significantly to the public’s
                          understanding…
             Example 2    Factor #2
                          This will contribute significantly to the public’s understanding of EPA’s
                          oversight role in Texas air permitting and enforcement activities.
                          Factor #4
                          The requested documents will reveal EPA’s role in the Texas PSD and
                          Title V permitting process, and therefore will allow the public to
                          understand how EPA oversees state implementation of federal laws.


14-P-0319                                                                                         17
            Other requesters addressed factors #2 and #4 together, making distinctions on
            how the requester addressed each factor all the more difficult to parse:

             Example 3    Factors #2 and #4
                          Disclosure of the requested documents, accordingly, will primarily
                          benefit the general public and will contribute to public
                          understanding of government operations.

            Individuals from four organizations we interviewed described their confusion:

                   The part where you have to contribute to the greater understanding
                   of government (i.e., factor #4), that one is a little difficult, mainly
                   because I don’t know what I am going to get so it is hard to talk
                   about it.

                   We treat factor #4 as part of factor #2. All of these factors tend to
                   blend together.

                   [After querying others in my office] When they were denied,
                   everybody had always been denied for the same reason, factor #4.
                   … We read the denials but we don’t understand what we can do to
                   fix it. It seems very subjective because there is a lot of wiggle
                   room in the word "significantly.”

                   I’ve done this a lot of times and I’m fairly conversant with it.
                   If I were not, I would find the distinction between some of the
                   elements difficult to parse – #2, #3 and #4 all tend to merge
                   together. The distinction between those three doesn’t make a whole
                   lot of sense. They seem like terms of art instead of obvious
                   distinctions. The factors are not self-explanatory.

The EPA Eliminated Its Practice of Requesting Additional Justification
            Although not required by the FOIA or the EPA’s regulations, the EPA in practice
            followed up with a requester for additional information to decide whether a fee
            waiver request met the six factors. Our review found that the EPA inconsistently
            requested additional justification from the 21 organizations in the 475 files we
            reviewed, even in instances where the agency requested additional justification
            from the same requester in the past. Out of the 475 files, we noted that the EPA
            requested additional justification in 103 instances (approximately 22 percent of
            the time). We found instances where the EPA did not seek additional justification
            from some organizations that frequently request fee waivers despite requesters
            having submitted very little information on fee waivers.

            Neither the FOIA nor the EPA’s regulations require the agency to request
            additional justification; it was an extra step that the agency took. The EPA’s fee
            waiver workflow diagram stated that when a requester has not met the six factors


14-P-0319                                                                                      18
            but “if FOIA Specialists … feels that [a requester] could, they will send a
            ‘substantiation letter’ to the fee waiver requester.” If a requester did not respond
            within 7 days to the agency’s request, the fee waiver was then automatically
            denied. The agency FOIA Officer stated that, at the time, this process involved
            staff using their experience “to identify and deny those that will never meet the
            criteria (e.g., prisoners) based on what is presented.” The agency FOIA Officer
            added that they tried to use information a requester provided and not go back and
            forth if they did not have to.

            Initially, the agency FOIA Officer said that OEI would develop examples for
            when FOIA Specialists do not have to reach back to the requester for additional
            information. Upon further consideration, the agency decided to eliminate any
            possibility of inconsistency in this area by no longer requesting additional
            justification for any request. We agree that this action would address the risk of an
            appearance of differential treatment by the EPA asking for additional justification
            from some requesters and not others.

Conclusion
            While we agree with how the EPA applied the six factors to 95 percent of the fee
            waiver requests from the variety of organizations within our sample, opportunities
            exist for the agency to enhance its process by better clarifying the factors it uses.

Recommendations
            We recommend that the Assistant Administrator for Environmental Information:

               2. Clarify what requesters must demonstrate under each factor to receive a
                  fee waiver.

               3. Inform the public of enhancements to the agency’s FOIA website and
                  other efforts to clarify what must be demonstrated under each factor.

               4. Clarify the EPA’s approach on when to request additional justification.

Agency Comments and OIG Evaluation
            In its response to our draft report, the agency did not agree with
            recommendation 2. After meeting with the agency to discuss its comments, we
            modified the recommendation. Recommendation 2 initially stated that the EPA
            should revise its regulations to clearly state what requesters must demonstrate
            under each factor to receive a fee waiver. The agency said it did not need to wait
            for a regulatory action to more clearly inform requesters on how the agency
            considers the factors. The revised recommendation 2 leaves to the EPA the
            decision on how to inform the public as long as the clarification takes place. The



14-P-0319                                                                                     19
            EPA agreed. Recommendation 2 is resolved and open with agreed-to actions due
            for completion in March 2015.

            For recommendation 3, the EPA agreed and provided acceptable corrective
            actions. Recommendation 3 is resolved and open with agreed-to actions due for
            completion in March 2015.

            For recommendation 4, we initially recommended that the EPA develop criteria
            and policy for FOIA Specialists on when to request additional justification.
            Subsequently, on June 2, 2014, the EPA acted on this recommendation by
            discontinuing its practice to request additional justification. We agree with the
            EPA’s decision to stop requesting additional justification. Recommendation 4 will
            be closed upon issuing this final report.

            Appendix B includes the agency’s full response to the official draft report, and the
            OIG’s comments.




14-P-0319                                                                                    20
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                        Subject                          Status1        Action Official             Date      Amount      Amount

     1       15    Examine and address the reasons for variability in      O       Assistant Administrator for    03/31/15
                   response times for FOIA fee waiver decisions and                Environmental Information
                   appeals.                                                        and the General Counsel

     2       19    Clarify what requesters must demonstrate under          O       Assistant Administrator for    03/31/15
                   each factor to receive a fee waiver.                            Environmental Information

     3       19    Inform the public of enhancements to the agency’s       O       Assistant Administrator for    03/31/15
                   FOIA website and other efforts to clarify what must             Environmental Information
                   be demonstrated under each factor.

     4       19    Clarify the EPA’s approach on when to request           C       Assistant Administrator for    06/02/14
                   additional justification.                                       Environmental Information




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0319                                                                                                                                       21
                                                                                     Appendix A

                Methodology for OIG Sample Selection
The EPA has FOIA information in two systems—FOIAXpress, which was deployed in 2005,
and FOIAonline, a new record keeping system deployed in October 2012. To select the two
samples used for our review, we first had to determine the universe of FOIA fee waiver requests.
We ran reports out of both FOIAXpress and FOIAonline to obtain a listing of FOIA fee waiver
requests dated October 1, 2009, to June 19, 2013. After working to eliminate duplicates, we
combined the FOIAXpress and the FOIAonline datasets from this time period into one dataset of
2,826 fee waiver requests. We relied on the data from these reports and did not do additional test
work to check or verify the accuracy of the data in FOIAXpress and FOIAonline. Based on the
universe of 2,826 fee waiver requests, we created two groups, described below:

   1. Fee Waiver Denials

               Of the 2,826 fee waiver requests in the EPA’s data systems, we identified 1,117
                that were listed as being denied (40 percent). During the course of our review we
                noted additional duplicate entries. We also found that some of these entries were
                not actually denials but instead should have been characterized differently
                (i.e., granted, withdrawn, not billable). After accounting for these, the list of
                denials reviewed for our sample was 1,077.
               We reviewed all of the 1,077 denials for the factor cited for denial and the date
                when the EPA sent the denial letter. We also determined whether documentation
                indicated that the EPA requested additional justification for the waiver requests.
               We also determined whether there was documentation of requesters appealing
                denial decisions. If a denial was appealed, we documented the date of the appeal,
                the date on the EPA’s appeal decision letter, the EPA’s determination, and the
                factor(s) cited if the EPA upheld the denial on appeal.
               Our review and findings on these 1,077 denials addressed our objective to
                determine whether the EPA was timely in evaluating fee waiver requests and
                appeals in accordance with the EPA’s regulations and policies and procedures.
               In developing charts on elapsed days, for the initial determination start date, we
                used dates listed in the reports we ran from FOIAXpress and FOIAonline. For
                FOIAXpress requests, we used the dates labeled “Requested Date.” For
                FOIAonline requests, we used the dates labeled “Submitted.” For the end date for
                both data sets, we used the date listed on the fee waiver denial letter sent by the
                EPA, except for two instances where letters were undated. For these two, we used
                the date listed in FOIAonline. For appeals, we used the date listed on the
                requester’s appeal letter as the start date, and the date listed on the appeal
                determination letter sent by the EPA as the end date. Also, we did not review files
                for extensions and did not take extensions into account in our analysis.




14-P-0319                                                                                        22
   2. File Review

               From the list of 2,826 fee waiver requests, we eliminated those listed as news
                media, educational and non-commercial scientific organizations because these
                groups do not pay for search and review under FOIA. In addition, we determined
                to only review entries listed as granted or denied. This resulted in 1,730 fee
                waiver requests that had either been fully denied or fully granted and did not
                include requests made by news media, educational or non-commercial scientific
                organizations.
               From the list of 1,730 fee waiver requests, we identified requests from those
                organizations with 10 or more requests from October 2009 to June 2013. This
                resulted in 521 requests from 22 separate requester organizations. After
                eliminating duplicate requests, those with missing documentation, and one errant
                group (that the data system coded as requesting fee waivers when in fact it had
                not), we had a list of 475 fee waiver requests from 21 organizations. We reviewed
                the 475 requests to determine whether the EPA appropriately (i.e., in an
                ‘unbiased’ manner) applied the criteria for making a fee waiver determination and
                whether entities asking for waivers appropriately justified their requests. We also
                reviewed any appealed denials of these 475 requests, including whether requesters
                provided more information in their appeal of a denial than they did in their initial
                requests.
               We interviewed individuals from requester organizations to get their perspectives
                on the EPA’s fee waiver process and whether they had any suggestions for
                improvement. In choosing an interview sample, we wanted to identify those that
                could share an experience with grants, denials and appeals to speak to the entirety
                of the process from a customer perspective. From the list of 21 organizations
                described above, we eliminated organizations whose fee waiver requests were
                either 100 percent granted or denied, which dropped the list to 16. We then
                identified requesters within the remaining organizations that had appealed fee
                waiver denials. This resulted in individual requesters within five organizations
                with experience in grants, denials and appeals:

                   o   Center for Biological Diversity.
                   o   Competitive Enterprise Institute.
                   o   Natural Resources Defense Council.
                   o   Northwest Environmental Advocates.
                   o   Public Employees for Environmental Responsibility.




14-P-0319                                                                                        23
                                                Appendix B


       Agency Response to the Official Draft Report
                  and OIG Comments




14-P-0319                                               24
14-P-0319   25
Attachment

                       Response to OIG Findings and Recommendations


Title of Report and OIG At a Glance Page: Title of Report “The EPA Can Improve Its
Timeliness and Consistency in Processing Freedom of Information Act Fee Waiver Requests”

General Comments:

The EPA strongly recommends revising the title of the report to avoid confusion over the
findings of the report. The current title does not specify what EPA activity OIG has found to be
inconsistent in our processing of fee waiver requests. According to the report, the only
inconsistency identified is in the time taken to process a request, and the title should reflect that.
As written, the title strongly implies that the OIG found evidence of inconsistent substantive
decisions or bias, as well as evidence of inconsistent processing times. To avoid public
misunderstanding of the findings, the EPA suggests a revision to the title to state clearly that no
evidence of substantive bias was found. If OIG would like to focus the title of the report on the
findings regarding processing times, a possible revision that would avoid this confusion is “The
EPA Can Improve the Speed and Consistency of Fee Waiver Request Processing Times.”

In addition to adjusting the title of the report to more accurately reflect OIG’s findings, the EPA
believes that the report should point out that the Deputy Administrator specially asked OIG to
determine whether fee waiver decisions were biased. This topic of inquiry is prominently
featured in the Purpose section of the document, but largely absent from the At a Glance page
and the Table of Contents. The finding that they were not biased should be made clear and
featured in its own section of the report. Instead, this key finding is relegated to a clause that
begins with the word “While…” on the “At a Glance” summary of the report findings. This
passing mention of OIG’s conclusion might allow individuals to allege that the auditors are
intentionally seeking to de-emphasize this key finding.

 OIG Response 1: We revised the title and the At a Glance to clearly state that we found no
 indications of bias in the sample of fee waivers that we reviewed.


Finally, this summary page incorrectly states that OEI concurred with the recommendation to
revise the text of its regulations to more clearly state what requesters must demonstrate under
each factor. OEI did agree to evaluate the feasibility of incorporating OIG recommendations
during the process of revising the agency’s FOIA regulations. As discussed further below, OEI
does not concur with the specific recommendation to modify the regulatory text in this area.

 OIG Response 2: We modified our recommendation after discussing it with the agency. The
 agency said it did not need to wait for a regulatory action to more clearly inform requesters
 on how the agency considers the factors. The revised recommendation leaves to the EPA the
 decision on how to inform the public as long as the clarification takes place. The EPA agreed.




14-P-0319                                                                                            26
Chapter 1 – Introduction

General Comments:

The EPA suggests that OIG include a background sentence that also provides the 1987 DOJ/OIP
guidance establishing the six statutory fee waiver factors, available here:
http://www.justice.gov/oip/foia_updates/Vol_VIII_1/viii1page2.htm and more clearly states that
all or nearly all federal agencies, including the EPA, adhere to these factors in their regulations.

     OIG Response 3: We added a footnote to chapter 1 on DOJ’s 1987 guidance.


The EPA also suggests including a footnote describing the 20 working day processing time for
FOIA request, to note that the 20 working day processing time can properly be extended by the
agency under provisions of the FOIA accounting for complex requests and unusual or
exceptional circumstances. See 5 U.S.C. 552(a) (6) (B) & (D).

     OIG Response 4: We added a footnote to chapter 1 on extensions to the 20-working-day
     processing time.


Finally, the EPA suggests that the background section point out that our FOIA regulations are
consistent with OMB Fee Guidance of 1987, the Department of Justice FOIA regulations, and
the regulations of nearly all other federal agencies.

     OIG Response 5: We did not review whether the EPA’s FOIA regulations were consistent
     with those of other federal agencies. We added the EPA’s assertion to chapter 1.


Chapter 2 – The EPA Should Address Variability in Response Times for Fee Waiver
Requests and Appeals

General Comments:

The report correctly notes that the Freedom of Information Act is silent as to the statutory
deadline for making fee waiver15 determinations. The EPA had established an internal goal of 10
days, but as a result of the OIG review, the EPA will now follow the 20 day timeline that applies
to the FOIA request itself. The report notes that EPA has a 12 day average response time to fee
waiver requests, which is clearly within the statutory time limit for responding to FOIA requests.
In light of this 12 day average for the EPA to respond to fee waiver requests, the two examples
cited on page 6 are extreme outliers. The EPA suggests emphasizing that these two examples are
outliers in the context of the 1062 decisions reviewed, and that they represent less than 0.2% of
total decisions reviewed. It may be more helpful to discuss what other figures support the finding
of “considerable variability” in response times, outside of these two extreme examples.

15
     The Freedom of Information Act provides the agency 10 days to make expedited processing determinations.


14-P-0319                                                                                                      27
 OIG Response 6: We agree that the EPA’s response time is within the statutory time limit
 for responding to FOIA requests. We did not make any changes to emphasize the two outliers
 as they, along with other data in figure 1, comprise the “considerable variability” we noted in
 chapter 2 (i.e., response times that exceeded the statutory time limit).


The EPA would also like to note that the higher than average business days to deny request for
Q4-2012 and Q1-2013, as depicted in Table 5, can be attributed to the deployment and
implementation of the new FOIA Online system and the learning curve associated with any
major new system deployment.

 OIG Response 7: We added the EPA’s explanation to chapter 2.


Finally, in the discussion of the fee waiver factors and reasons on page 11, the EPA suggests
replacing the word “factor” with “reason” when discussing factors #7-10 in order to distinguish
between the regulatory factors and the OIG added reasons. Because EPA uses the same six
factor test that all or nearly all other federal agencies use, and the word “factor” is used
consistently by courts and the agencies when describing this test, it is likely to cause confusion to
describe 4 additional “factors” in this context that are not included in the standard six factor test.

 OIG Response 8: We explained in chapter 2 that the EPA cited six regulatory and four
 “other factors” as the basis for fee waiver denials and appeals.


OIG Recommendation 1: Examine and address the reasons for variability in response times for
FOIA fee waiver decisions and appeals.

Corrective Action 1:

The EPA agrees with the recommendation and will complete this task during the 2nd quarter of
FY 2015.

 OIG Response 9: In our discussions, the agency agreed that we could note the last day of the
 second quarter of fiscal year 2015 (or March 31, 2015) as the planned completion date.




14-P-0319                                                                                          28
Chapter 3 – The EPA Should Better Clarify Review Factors and When to Request
Additional Justification

General Comments:

The EPA’s Deputy Administrator specifically requested OIG to evaluate whether any bias in our
processing of fee waiver requests. The title for Chapter 3 needs to reflect the OIG finding that no
bias exists. The current title fails to address the evaluation performed in Chapter 3.

 OIG Response 10: We revised the chapter 3 title to state that we found no indications of
 bias.


The EPA believes that references to a need to “lessen any perception of differential treatment” or
“any perception of bias” are inappropriate and strongly recommends removing all references.
Nowhere in the report does OIG indicate that it sought to determine whether there was, in fact, a
perception of bias with regards to the EPA’s fee waiver decisions that extended beyond a report
of a single organization whose allegations have been proven false by EPA data and this very
evaluation. While individual members of Congress may have expressed concern over that
organization’s allegations, to date, not a single other entity has, to our knowledge, expressed a
perception of bias. In light of that, these references are inappropriate.

 OIG Response 11: The Deputy Administrator’s request asked that our review assess whether
 the EPA applied factors in a manner that adhered to the agency’s policy of timely and
 unbiased treatment of fee waiver requests. That, per se, meant that our review sought to
 establish or refute any bias, real or perceived. For example, we identified the perception of
 differential treatment in how the EPA requested additional justification from some requesters
 and not others. The EPA agreed below that this voluntary practice could introduce
 inconsistency in its process and decided to stop requesting additional justification. Thus, the
 EPA’s actions addressed this perceived bias/inconsistency.


The section “The EPA Consistently Applied the Regulatory Standard to Fee Waiver Requests”
should be clearly answered in the “At a Glance” opening section and be featured as its own
chapter.

 OIG Response 12: We did not make this change because our addition of the words regarding
 no indication of bias to the report title and chapter 3 title makes this conclusion more
 prominent.


Additionally, in light of the statistical conclusions in the report, it is inappropriate to say that
additional clarity is needed, as stated in the section title “Additional Clarity Needed on Factors
the EPA Uses to Decide Fee Waiver Requests.” OIG auditors agreed with EPA fee waiver
decisions 95% of the time. While not perfect, a 95% agreement rate is very high and does not



14-P-0319                                                                                              29
justify a headline that additional clarity is “needed.” A more appropriate title would be that
additional clarity would be helpful.

 OIG Response 13: We changed “needed” to “would be helpful” per the EPA’s suggestion.


In the same section, the EPA believes that the report needs to indicate that our factors are the
same used by the DOJ and almost every other agency, and that they are explained in the DOJ’s
FOIA guide. To fail to do so would allow the reader to draw an inappropriate conclusion that the
EPA has adopted factors that are different from or less well understood than the rest of the
government. Allowing such a conclusion while knowing that it is not accurate could call into
question the objectivity of the report.

 OIG Response 14: We added this to our report per the EPA’s similar comment on chapter 1.


In the interviews with 4 organizations regarding Factors #2 and #4, the interviewees say that “we
read the denials but we don’t understand what we can do to fix it.” To be fair, the report should
note that each fee waiver denial and each appeal contains contact information for the EPA’s
FOIA Liaison and OGIS. It does not appear that OIG evaluated whether any of these
organizations took advantage of the resources the EPA offered them.

 OIG Response 15: We noted in chapter 1 how the agency’s FOIA website contains contact
 information for FOIA staff. The organizations with whom we spoke described varying
 degrees to which they took advantage of the EPA’s contact information on FOIA questions.


Finally, on page 11 the report states that OEI is in the process of developing examples for when
FOIA specialists do not have to reach back to the requester for additional information. It is more
accurate to state that OEI has determined that it can eliminate any possibility of inconsistency in
this area by no longer requesting additional information for any request. It is not accurate to
state that OEI will be continuing this voluntary practice.

 OIG Response 16: We revised the report to note the EPA’s decision to stop its voluntary
 practice of requesting additional justification.


OIG Recommendation 2: Revise the EPA’s regulations to clearly state what requesters must
demonstrate under each factor to receive a fee waiver.

Corrective Action 2: The EPA does not concur with OIG Recommendation 2.

Discussion of OIG Finding 2:
The EPA is currently revising its regulations with a variety of goals in mind to assist the
requesting public. However, the six factors set out in the EPA’s regulations are prescribed by
OMB to all federal agencies. To modify the regulatory language would make the EPA’s fee


14-P-0319                                                                                        30
waiver standard inconsistent with the standard applied by the rest of the federal government and
actually increase public confusion by deviating from the developed body of case law that relates
to this existing standard. The EPA believes it is more appropriate to supplement the public’s
understanding of the six standard factors by reference to existing DOJ guidance and to judicial
opinions interpreting the standard, rather than revising the language in the EPA’s regulations. If
OIG is recommending that the EPA adopt regulations that differ, even if in being more specific,
from DOJ regulations and guidance, it should acknowledge that they are making that significant
recommendation.

 OIG Response 17: After meeting with the agency to discuss their comments, we modified
 the recommendation. Recommendation 2 initially stated that the EPA revise its regulations to
 clearly state what requesters must demonstrate under each factor to receive a fee waiver. The
 agency said it did not need to wait for a regulatory action to more clearly inform requesters
 on how the agency considers the factors. The revised recommendation 2 leaves to the EPA
 the decision on how to inform the public as long as the clarification takes place. The EPA
 agreed.


OIG Recommendation 3: Inform the public of any regulatory changes, such as through
enhancements to the agency’s FOIA website and/or other communication efforts.

Corrective Action 3:
The EPA agrees with this recommendation and is currently completing this task.

 OIG Response 18: In our discussions, the agency agreed that we could note the last day of
 the second quarter of fiscal year 2015 (or March 31, 2015) as the planned completion date.


OIG Recommendation 4: Develop criteria and policy for FOIA Specialists on when to request
additional justification.

Corrective Action 4: The EPA does not concur with OIG Recommendation 4.

Discussion of OIG Finding 4:

The EPA does not agree with the recommendation to provide further instruction or guidance on
when to seek additional information from requesters. Due to the possibility that this voluntary
practice could introduce inconsistency into the process, EPA will now make our decisions based
upon the FOIA requester’s submission and will no longer request additional justification. EPA
will instead rely on the additional communications described in our response to
Recommendation 3, as well as during the rulemaking process for revising EPA’s regulations, to
help inform the public about existing standards and practices so that initial fee waiver
submissions contain all the information necessary for EPA to evaluate the requests with enough
information.




14-P-0319                                                                                        31
 OIG Response 19: We initially recommended that the EPA develop criteria and policy for
 FOIA Specialists on when to request additional justification. Subsequently, on June 2, 2014,
 the EPA acted on this recommendation by discontinuing its practice to request additional
 justification. We agree with the EPA’s decision and modified our recommendation. We will
 close this recommendation upon issuing our final report.




14-P-0319                                                                                       32
                                                                                Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Environmental Information
Principal Deputy General Counsel
Regional Administrators, Regions 1–10
EPA Freedom of Information Act Officer
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of General Counsel




14-P-0319                                                                               33
